                                                                                               NATIONAL SCIENCE FOUNDATION
                                                                                                    4201 WILSON BOULEVARD
                                                                                                   ARLINGTON, VIRGINIA 22230




                                                                       OFFICE OF
                                                              1;   INSPECTOR GENERAL



I
I
                                                              I
                                                             I/     MEMORANDUM
                                                                                                                                                                     I
I
                                                         1;         Date:                  July 1, 1997                                                              1
            ..................................
                                                                     TO:
        ,



i                                                       11
                                                                                           File No. 196100054

                                                                     From:                                     Forensic Scientist, Investigations

                                                    I                Re:                                   -
                                                                                           Case close-out - D


                                               /I                    Background:
    I
                                           I
                                           I                         In October 1996, an NSF program director referred an allegation to our office
                                          It
                                                                                                         an NSF funded scientist from the University of
                                          I                                                              had received a call from (at that time) the estranged
                                                                                                         was using his NSF grant funds to pay for personal
                                                                     travel exDenses for himself and another woman with whom he was having- an affair.
    I                                /I




                                     I
                                                                     The wife'also alleged that
                                                                                               7         ad made this woman a principal investigator (PI) on
                                                                     his grant, and that he also was c aiming equipment expenses that were not reimbursed
                                                                     from his grant on his tax returns.'

                                                                      Findings:


                                                                                  m3
                                 1
    I
                                I!


                                                                     I reviewed            ccount summaries and travel expenditure forms for both his NSF
                                                                     grants, 0               and SBR-9308334, and found no evidence of fraud or other            ,
                                                                      criminal activity.



                                                                                                                                                    'mt
!
                            I

                                                                                                                             .
                                                                                                                             He informed me th
I
1
                                                                      now married to                                      ho works in the same fie
                        I
                                                                                                                         were both involved in a group who
                       I/                                                                                                 ting field research in Alaska at the
                    If
                                                                     same time. He also said that they were both funded by their own grants for travel
                    'I                                               regarding the field research in Alaska, and therefore there would be no need for
                    I
                    I
                                                                           l to use his own grant funds to pay for        to travel to Alaska. The program
                                                                     director also stated that both grants appeared to be doing well.
                   1
1   Conclusions:
I


I   There is no evidence that supports that allegations against   0.
                                                                   At this time, this
    case is closed.
